No. 21-164

 

IN THE

Supreme Court of the United States

TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioner,
Vv.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.

On Petition for a Writ of Certiorari
to the Circuit Court of the
City of Fredericksburg, Virginia

BRIEF FOR AMICI CURIAE
AMERICAN ASSOCIATION OF CHRISTIAN SCHOOLS
AND ASSOCIATION OF CHRISTIAN SCHOOLS
INTERNATIONAL
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,456 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
